Department of Health and Human Services

       OFFICE OF
  INSPECTOR GENERAL




SUMMARY OF OIG ACTIVITIES ON
         MEDICAID




              JmIE   1993
                      OFFICE OF INSPE(XOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program, and management problems, and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                         OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.
    Department of Health and Human Services

           OFFICE OF
      INSPECTOR GENERAL




    SUMMARY OF OIG ACTIVITIES ON
             MEDICAID




             JUNE 1993   OEI-12-92-00550°
I
L
              EXECUTIVE                        SUMMARY

PURPOSE

This report consolidates information obtained during the course of Office of Inspector
General (OIG) reviews of the Medicaid program and offers solutions to long standing
problems. This is not an assessment of the Health Care Financing Administration’s
(HCFA) effectiveness in managing Medicaid. We focus on problems that have not
been resolved. Apolicpakers       consider ways toreform thehealth care system,
lessons drawn from the Medicaid program can be instructive.

BACKGROUND

The Medicaid program is the major vehicle through which the Federal and State
governments provide health care to low income persons and long term care to the
disabled and low income elderly.

In Fiscal Year (FY) 1991,28.2million Medicaid beneficiaries were eligible for
services. Thirteen million of those were children; another 6.8 million were their
parents. While the nonelderly poor comprise the great majority of Medicaid
beneficiaries, they use proportionately far fewer of Medicaid’s dollars than the 3.4
million elderly beneficiaries or the 4.1 million blind or disabled beneficiaries. In
reality, a few beneficiaries requiring intensive services consume most of the dollars
spent by the Medicaid program. Elderly persons receiving long term care represent 6
percent of beneficiaries, using 30 percent of program spending. Nonelderly disabled
persons represent 15 percent of Medicaid beneficiaries, using 38 percent of program
spending. Of $76.9 billion in vendor payments made in fiscal year 1991, 28 percent
went to hospitals for inpatient services, 27 percent went to nursing facilities, and 10
percent went for intermediate care services for the mentally retarded.

ISSUES

The Medicaid program must successjidly implement major new legiriktion tzrpanding
eli~ility for SW”CW and imp~emenh”ngcost containment measures, such as service
expansions for pregnant women and children.

l%e Medicaid program must aggressive~ identfj pdicim which are outdated and waste
precious rerounxr, such as overly generous payments to institutions for mentally
retarded persons and enhanced Federal matching for family planning services.

%   Medicaid program must identijj new stratq”er to rruuimke & health care dolhm,
such as managed care and cost sharing.

States must ensure that paymenti made to providers are fair while reducing admhuktrative
burdens, through operational changes to ensure claims are accurate and overpayments



                                           i
are recovered, scrutiny of payment rates which might be too generous to some
providers and too skimpy to others, aggressive pursuit of third party liability, review of
claims to ensure services are medically necessary, and more extensive use of electronic
claims, review and payment.

l%e Jkiicaid program must ensure that long term care expenditures, which account for a
huge proportion of Medicaid outkzys, are managed wke&, through tighter limits on
transfers of assets and tougher asset recovery laws.

The Medicaid program must ensure that qualiq of care is berng delivered to beneficiaries,
including effective implementation of new rules for nursing homes, development       of an
effective system of quality assurance for Medicaid managed care settings, and
implemention of new rules for review of drug use.

l’he Medicaid program must electively protect i~e~fiom jiaud and abuse, taking full
advantage of Medicaid Fraud Control Units, identifying questionable patterns of care
and billings, and designing strategies to prevent fraud.

Final&, Federal and State relikions must be improved, thus avoiding unconstructive
attempts by the Federal government to save money or accomplish its objectives at the
expense of States and unproductive attempts by the States to increase the amount of
Federal funds they receive without instituting real changes in their own programs.

RECOMMENDATIONS

As discussed in this report, the problems and challenges facing the Medicaid program
are substantial. We are aware, of course, that many policymakers are arguing for a
fundamental restructuring or elimination of the Medicaid program. During the course
of our audits, inspections, and investigations in the Medicaid program, we have made
numerous specific recommendations for change. Many of these recommendations
have been accepted by the Health Care Financing Administration and some have not.
Some require legislative changes; others require action by the States.

All significant unimplemented OIG recommendations are included in one of two
documents, The Office of Inspector General Cost-Saver Handbook (the Red Book) is
a compendium of OIG recommendations to reduce unnecessary spending by the
Department through administrative or regulatory change, or by the Congress and
Administration through legislative change. The Office of Inspector General Program
and Management Improvement Handbook (Orange Book) contains recommendations
for strengthening program and management efficiency and effectiveness. For our
readers’ convenience, we have reproduced our listing of recommendations to improve
the Medicaid program in the appendices to this report.

We are pleased to see that the Administration supports our recommendations for
extending the ban on self-referral, for lifting the ban on drug formularies, and for
tightening loopholes on transfers of assets and strengthening asset recovery laws.


                                            ii
                     TABLE                     OF CONTENTS

EXECUTIVE        SUMMARY


INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..1


ISSUES      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


    Implementing Major Newkgislation                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


    Identi~ing   Outdated Policies.            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


    Identifying New Strategies           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


    Ensuring Fair Payments and Reducing Burdens                          . . . . . . . . . . . . . . . . . . . . . . . 10


    Managing LongTerm            Care      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...14


    Ensuring QualityofCare             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...15


    Guarding Against Fraud and Abuse                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...16


    Improving Federal-State         Relations        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...18


RECOMMENDATIONS                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...20


Appendix A. Unimplemented              OIG Recommendations:                   Cost Savers


Appendix B. Unimplemented              OIG Recommendations:                   Program Improvements


Appendix C. Endnotes

                         INTRODUCTION

PURPOSE

This report consolidates information obtained during the course of Office of Inspector
General (OIG) reviews of the Medicaid program and offers solutions to longstanding
problems. This is not an assessment of the Health Care Financing Administration’s
(HCFA)effectiveness   inmanaging Medicaid. We focus onproblems thathave not
been resolved. As policymakers consider waysto reform the health care system,
                                                                        .
lessons drawn from the Medicaid program can be instructive.

BACKGROUND

The Medicaid program is the major vehicle through which the Federal and State
governments provide health care tolow income persons and long term careto the
disabled and low income elderly. Persons receiving grants from the Aid to Families
with Dependent Children (AFDC) program, and the aged, blind or disabled receiving
cash assistance through Supplemental Security Income (SS1), are “categorically”
eligible for Medicaid. Asset and income tests are also applied. States can, at their
option, expand eligibility under Medicaid to the “medically needy,” those who are
categorically eligible but don’t meet the income and asset tests.

In Fiscal Year (FY) 1991, 28.2 million Medicaid beneficiaries were eligible for
services. Thirteen million of those were children; another 6.8 million were their
parents. While the nonelderly poor comprise the great majority of Medicaid
beneficiaries, they use proportionately far fewer of Medicaid’s dollars than the 3.4
million elderly beneficiaries or the 4.1 million blind or disabled beneficiaries. In
reality, a few beneficiaries requiring intensive services consume most of the dollars
spent by the Medicaid program. Elderly persons receiving long term care represent 6
percent of beneficiaries, using 30 percent of program spending. Nonelderly disabled
persons represent 15 percent of Medicaid beneficiaries, using 38 percent of program
spending. Of $76.9 billion in vendor payments made in fiscal year 1991, 28 percent
went to hospitals for inpatient services, 27 percent went to nursing facilities, and 10
percent went for intermediate care services for the mentally retarded.

Administration of the Program

States administer their Medicaid programs within broad Federal requirements and
guidelines. These requirements allow States considerable discretion in determining
income and other resource criteria for eligibility, covered benefits, and provider
payment mechanisms. As a result, Medicaid programs vary considerably from State to
State.

Within the Federal government, the Health Care Financing Administration is
responsible for reviewing State plans for their Medicaid programs and approving



                                           1

waivers from Federal rules. The Medicaid Bureau was established in order to give
proper attention to the role of the Federal government in overseeing States’
implementation of Federal requirements.

I%ogram Cosk3

The Medicaid program is financed jointly with State and Federal funds. Federal
contributions vary from State to State and currently range from 50 percent to 83
percent of program medical expenditures. Administrative costs are financed at other
rates.

Medicaid is a major source of budget pressures for both the Federal and State
governments. Expenditures have grown dramatically in recent years. Total Medicaid
expenditures were $88 billion in 1991, compared to $38 billion in 1988. For States,
this means that Medicaid threatens to break the bank. It is the second largest or
largest State budgetary item in most States, surpassed only by education. Some States
have responded by cutting services or limiting eligibility. The pressures that are placed
on the Federal government are also serious. If current trends continue, Federal
expenditures for Medicaid will match Federal expenditures for Medicare sometime
around 1997. The Congressional Budget Office projects that Medicaid will represent
seven percent of all Federal spending in 1996, compared to three percent in 1990.

Recent Initiatives

In recent years, two competing pressures have been placed upon the Medicaid
program. First, the program has been called upon to provide more services or provide
existing services to more beneficiaries. New Federal mandates were placed upon
States to expand coverage for pregnant women and children. At the same time, the
Federal government has called upon States to reduce their costs.

Because of their frustration with the program’s rising costs, administrative
requirements, and new mandates, States have taken action. Some States have
attempted to implement new and innovative ways of providing health care for their
low-income and disabled populations, but face losing Federal financial support if
existing Medicaid rules aren’t waived. Many States have instituted measures, such as
provider taxes, to increase the amount of the Federal match. Other States weigh
reducing services or limiting eligibility to portions of their Medicaid populations.

Role of the OjJice of Ihspector General

The OIG’S mandate is to protect the integrity of the United States Department of
Health and Human Services’ (DHHS) programs and the beneficiaries of those
programs by reducing fraud, waste and abuse and by promoting the effectiveness and
efficiency of the department’s programs.




                                            2

The OIG accomplishes its mission through a series of audits, evaluations (inspections)
of program operations, and investigations of possible civil or criminal violations. The
OIG also reviews all regulatory and legislative proposals developed by the Department
to assess their effect on fraud, waste and abuse.

Methodology

The issues presented in this report are based on the inspection, audit and investigative
work of the OIG.

Rather than present findings, as we normally do, this report describes the challenges
facing the Medicaid program. We describe how program managers must implement
new requirements successfully, identi~ outdated and wasteful policies, identify new
strategies to maximize its health care dollars, ensure that providers are paid fairly
while reducing administrative burdens, ensure that long term care dollars are managed
wisely, ensure that services provided are of high quality, protect the program from
fraud and abuse, and ensure a constructive relationship between the Federal and State
governments.




                                            3

                                    ISSUES

IMPLEMENTING        MAJOR NEW LEGISLATION

The Medicaid program must successfully implement major new legislation expanding
eligibility for services and implementing cost containment measures.

�	    HCFA and the States must succewjidly implement program expansions for
      pregnant women and chikken.

Eligibility levels for the Medicaid program have recently been extended beyond the
traditional “welfare” populations previously served by Medicaid. Medicaid programs
must now cover all pregnancy related services for pregnant women, and medical
services for children under age six, whose income exceeds the States’ AFDC income
level but is less than 133 percent of the Federal poverty level. At their option, States
can receive Federal matching for such sefices provided for pregnant women and
children up to 185 percent of the Federal poverty level. By 2001, all children under
age 19 in families living under the Federal poverty level must be covered by Medicaid.

Our 1992 report on the Medicaid expansions for pregnant women found that many
States have endorsed the optional eligibility expansions, with some States innovatively
implementing the expansions. However, significant problems still prevent newly
eligible women from receiving prenatal care. These problems include inadequate
client outreach, cumbersome application processes, insufficient prenatal providers,
difficulties with presumptive eligibility, staffing shortages, lack of timeliness in
providing information and training for States to implement the expansions, and
inadequate data collection systems and evaluation processes to measure progress and
outcomes.1 The OIG plans periodic reports on States’ efforts in these areas.

�	    HCFA and the States must succemj%lly hnpkment program e.rpansionsfor EPSDT
      inundated in OBRA 1989.

OBRA 1989 enacted major changes to the Early and Periodic Screening, Diagnosis,
and Treatment (EPSDT) program, which is the mandatory program to provide
comprehensive health services to those under 21. Children must be screened
periodically for health and developmental problems. If potential problems are found,
the child must be referred for further services or treatment.

OBRA 1989 instituted new major changes to the EPSDT program. Among other
things, it required HHS to establish goals for States to meet and mandated coverage
of any service found to be necessary as a result of screenings.

The HHS set a yearly participation goal for each State, by the end of FY 1995, to
screen at least 80 percent of EPSDT-eligible children and to provide at least 80
percent of screenings recommended for children. States report on their performance



                                            4

to the Federal government. An OIG inspection completed in August 1992 examined
State reports from the period April 1, 1990 to September 1, 1990. We found that the
screening and participation ratios used to measure States’ performance in the EPSDT
program are essentially inaccurate. According to their own reporting, some States
screen more than 100 percent of eligible children. At the same time we conducted
our study, HCFA had formed a task group to evaluate the EPSDT reporting system.
We recommended that HCFA modify the methods by which it measures screening and
participation rates so that they are meaningful and accurate reflections of
performance.2 The HCFA agreed with our recommendations.          We are awaiting final
action to implement the necessary changes. Once these changes are place, it will be
both possible and important to monitor State performance, understand why some
States may be performing better than others, and take necessary corrective action so
that all States may reach the goals set by OBRA.

A second major change under OBRA 1989 is that States must now pay for any service
that is necessary to treat a condition a screening identifies, whether or not the State
Medicaid plan covers the service (as long as the service is one for which Federal
matching payments would be allowed). In a future study, the OIG plans to evaluate
what kinds of treatments are being provided and how referrals for treatment are being
made under the EPSDT program.

b	    HCFA and the States must succewfidly implement new programs designed to limit
      M2dicaid costi numdhted in OBRA 1990.

OBRA 1990 included provisions for two new programs designed to control Medicaid
costs: a rebate program for prescription drugs, and a buy-in provision for private
insurance by Medicaid for some beneficiaries.

Drug Rebate Rqyanz:      Though an optional service (not required to be provided by
Federal rules), nearly all States cover prescription drugs. Due to concerns that costs
of prescription drugs for Medicaid were rising faster than both the non-medical and
medical inflation rate, and that Medicaid programs were paying more than other
purchasers for such drugs, the Congress enacted legislation in OBRA 1990 requiring
drug manufacturers to give rebates to Medicaid programs as a condition for
participation in Medicaid payments for their drugs.

Section 4401 of OBRA 1990 established a detailed process for the payment of rebates
under Medicaid by drug manufacturers to the States and HCFA. As a condition for
payment by the Medicaid program to pharmacies for a manufacturer’s drugs, the drug
manufacturer must enter into a contractual arrangement with HHS (acting for the
States), whereby the manufacturer will offer rebates to the States in exchange for the
States agreeing to cover all of the manufacturer’s drugs under Medicaid (the law
nearly eliminated the use of drug formularies).

The rebates are calculated using formulas based on manufacturer pricing data. The
law requires manufacturers to report quarterly to the Secretary on their average


                                           5

manufacturer price (AMP) and their “best price” for each covered drug (the lowest
price offered to any buyer). The HCFA provides this information to the States.
States use claims data to determine the total number of doses of each drug dispensed
in the previous quarter and the pricing data provided by the manufacturers through
HCFA to arrive at a bill that is submitted to the manufacturer. This bill represents
the difference between the AMP and the best price, multiplied by the number of
doses paid for by the State Medicaid program.

Since the law’s inception in January 1991, the OIG has been actively involved in
monitoring the implementation of the drug rebate program. Certain significant
problems have been identified, including:

F      Drug manufacturers   are increasing the “best price” of Medicaid covered drugs?

b	    States had no procedures to monitor the correct identification of either the
      drug product or number of units dispensed, as reported by pharmacists.4

�	    Drug manufacturers vary in the methods they use to determine AMP and the
      length of time records should be retained.5

�	    HCFA supplied inaccurate unit rebate data to the States for all new drugs that
      entered the market during the first quarter of 1991.6

�	    HCFA supplied pricing data to the States that included errors in AMP, base
      AMP, and best price, resulting in unit rebate amounts being overstated.7

b	    HCFA has hot ensured that States establish adequate accountability and
      control over the drug rebate program. Of $475 million in rebates billed in
      1991, $111 million remains uncollected.8

In addition to concerns regarding the implementation of the drug rebate program, we
are also concerned that the law may have “given away with the left hand what it took
with the right” when it effectively eliminated formularies.

In 1990, we studied the difference between Canada’s reimbursement for drugs and
costs of the Medicaid program. We estimated that the Medicaid program paid $474
million more for name brand drugs than would have been paid by Canadian
prescription drug programs. Canada’s lower prices were attributable to negotiated
price reductions between the drug manufacturers and provincial government,
Centrally, the Federal government (Ottawa) sets prices through a price control board.
Importantly, provinces can include or exclude drugs in their formularies (lists of
covered drugs), and thus can decide that a given drug is too expensive and other
options are available.9

We recommended that HCFA address rising drug costs by pursuing strategies to limit
payments for drugs. We suggested three options: drug formularies (which were


                                           6

eliminated by OBRA 1990), drug price limits, and negotiation with manufacturers.
Relying solely on a rebate program as a form of negotiation, without the option of
deciding what you’ll pay for, reduces the amount of cost savings available. In the
course of our work on the drug rebate program, we attributed part of over $500
million in increased drug costs by the Medicaid program to OBRA 1990’s requirement
that States open drug formularies.l”

Use of Employer Group Halth Ilnu.rance: Section 4402 of OBRA 1990 requires States
to purchase (buy in) group health insurance for Medicaid clients when such purchases
would be cost effective. The first step in implementing this mandate is for States to
establish methodologies and systems for determining cost effectiveness. Currently only
about 18 States have established some sort of program. Methodologies for measuring
cost effectiveness (as a basis for deciding whether to buy into the private insurance
plan) include diagnosis or disease based systems, demographically determined systems,
or systems which include both approaches. We are currently gathering details on
these systems and the savings they have generated for States, if any.

IDENTIFYING      OUTDATED        POLICIES

The Medicaid program must aggressively identi& policies which are outdated and
waste precious resources.

Over time, the Medicaid program has instituted policies designed to provide financial
incentives for certain types of care, to increase the quality of care, or to maintain or
improve access to care. In light of the scarce resources that are available to the
Medicaid program, the continued justification for such policies must be reviewed once
new information suggests a better course of action or the original objectives are met.
In this regard, we would point to two examples: reimbursement policies for State-
operated intermediate care facilities for the mentally retarded (ICF/MRs); and
enhanced Federal financial participation (FFP) for family planning services.

Reimbumement for State ICF’MRK        At one time, the quality of care provided to most
persons suffering from mental retardation ranged from poor to worse. In response,
public financing and direct provision of care to the mentally retarded, often in the
form of large State-run institutions, became quite popular. In 1971, the Medicaid
program was amended to provide Federal reimbursement to States for caring for
people with developmental disabilities living in institutions. As a result of public
support for these institutions, the quality of care provided to persons who are mentally
retarded improved quite dramatically.

Today, however, the situation is different. The preferred setting for treating persons
with developmental disabilities has shifted from the institutional to community based
care. A number of studies have shown that clients with developmental disabilities
make better progress toward independent functioning in community rather than
institutional settings. Still, Medicaid policies favor institutions (the amount spent on
services in the community can’t exceed the amount spent in the institutions) and


                                             7
reimbursement rules for large State institutions are quite generous. Despite the policy

shift toward community-based treatment, most Federal Medicaid funds for the

developmentally disabled continue to be spent on large ICF/MRs.


Although Federal rules since 1980 require that reimbursement to State-run ICF/MRs

reflect the reasonable costs of an efficiently and economically operated facility, these

terms are not defined in regulation. Each State has considerable discretion in defining

these terms and setting ICF/MR payment methodology.


A 1993 inspection conducted by the OIG examined payments to large, State-run

ICF/MRs. We found that Medicaid reimbursement rates for large ICF/MRs are more

than five times greater in some states than in others. Average Medicaid

reimbursement in 1991 for large ICF/MRs ranged among States from $27,000 to

$158,000 per resident. This variation was unrelated to the patients’ severity of illness,

quality of service, facility characteristics, or resident demographics.*1


We have recommended that HCFA take action to reduce excessive spending of

Medicaid funds for ICF/MRs through administrative action, legislation to control

ICF/MR reimbursement, or comprehensive legislation to restructure Medicaid

reimbursement for both ICF/MR and Home and Community Based (HCB) waiver

services for people with developmental disabilities. In addition to saving wasted

dollars (we estimate that $683 million in Federal and State Medicaid funds could have

been saved in 1991 if costs were capped in ICF/MRs), such new policies would

provide incentives for community-based care rather than institutional care.


Enhanced FFP for Fan@         Pkmning Servkex States have been reimbursed at the

enhanced matching rate of 90 percent for family planning services since 1972. While

the higher FFP rate was originally needed to “jump start” the program, family planning

services are now a well established part of the States’ Medicaid programs and it is

time for this incentive to be eliminated. A 1992 OIG audit found that the 90 percent

rate is costly, unjustified, and may act as a disincentive to the States’ design and

maintenance of internal controls.12


In addition to examining program costs funded at special rates, we are also looking at

administrative costs for the AFDC, Medicaid and Food Stamp programs. We are

exploring the impact of a single block grant for these three programs’ administrative

costs on the States and Federal government. Reducing special matching rates is one

option that we are examining.


IDENTIFYING      NEW STRATEGIES

The Medicaid program must identifj new strategies to maximize its health care dollars.

Like every other third party insurer, the Medicaid program must search for ways it can
make the best use of its health care dollars. In the course of our work on the
Medicaid program, two important strategies present themselves: increased use of


                                            8
managed care or gatekeepers as a way to reduce the inappropriate use of semices and
provide continuity ,of care; and cost-sharing by beneficiaries as a way to collect funds
that can be used to maintain services.

A@u.zged Care: Many health care policy analysts have suggested the use of managed
care, whether in formal staff health maintenance   organizations (HMOS) or in looser
confederations   of primary care case managers, as a way to reduce the inappropriate
use of services by beneficiaries and provide better access to and continuity of care.
While significant expansions in the use of managed care by Medicaid recipients will
undoubtedly present new problems and challenges (such as the difficulty of recruiting
case managers, as is now being faced by the Maryland Medicaid program), our work
on nonurgent use of emergency rooms (ERs) suggests that managed care can indeed
be an important strategy.

The use of emergency departments for non-urgent care by Medicaid recipients has
long been recognized by State and Federal policymakers as a problem. In 1983, the
OIG reported that Medicaid recipients use ERs for non-urgent care largely because
other sources of care are either unavailable or inaccessible to them. We estimated
that at least half of Medicaid ER visits were non-urgent and could have been more
appropriately treated in community care settings.

Our 1992 study on use of ERs by Medicaid recipients found that non-urgent use of
emergency rooms has remained a problem, for some of the same reasons we cited in
1983. We estimate that over one-half to two-thirds of Medicaid emergency room visits
in our nine sample states are non-urgent.

We identified a number of ways that States are using to reduce non-urgent use of
emergency rooms. These approaches include managed care, pre-paid plans, 24 hour
telephone line to a nurse, tiered pricing, triage fees, emergency room claims review,
co-payments, and lock-ins. The approach most frequently considered successful (by
the states’ own self evaluations) addresses access to care through managed care or
prepaid programs. One of the primary functions of managed care/pre-paid plans is to
provide recipients ‘with an ongoing source of primary care and referral to other
services. By having an individual or group act as a “gate keeper,” and directing care to
the most appropriate setting, the number of non-urgent visits to the emergency room
may be reduced.

The success of state initiatives to control non-urgent use of ERs is difficult to
document, but our sample states offered some evidence to indicate these controls have
had a salutary effect. In Missouri, for example, ER visits by individuals enrolled in a
managed care/pre-paid program have declined despite an increase in enrollment. In
Wisconsin and Pennsylvania, the percent of non-urgent visits for Medicaid recipients
enrolled in managed care is lower than that of Medicaid recipients in the traditional
fee-for-service Medicaid program. For the years 1987 through 1989, seven states have
reported savings of approximately $182 million from managed care and pre-paid
programs which included controls placed on non-urgent use of ERs. Three of the


                                           9
programs have reported savings of approximately $13.6 million that are directly
attributable to ER controls,13

Cost Sharing Section 1902(a)(14) of the Social Securi~Act      provides that Medicaid
may impose “enrollment fees, premiums, or similar charges, and deductions, costs
sharing or similar charges.” Children, HMO enrollees, pregnancy services, emergency
services, hospice services, and services provided to residents of nursing facilities or
medical institutions are exempt from cost sharing.

A 1993 study by the OIG found that 27 States use cost-sharing in their Medicaid
programs. Copayments range from 50 cents to $3.00, with the exception of inpatient
hospital copayments which range up to $50 per admission. Four States also use a 2 or
5 percent coinsurance for certain services, and one State recently implemented a
inpatient hospital deductible of $100, The cost of administering a cost-sharing
program is minimal, since the charges are simply deducted from provider
reimbursement, effectively requiring the provider to collect the copayment or accept a
reduced fee.

States without cost sharing could save between $167 and $355 million annually by
applying cost sharing to just four services--inpatient hospital services, outpatient
hospital services, physician visits, and prescription drugs.

Although we did not find evidence to suggest that expanded cost-sharing in the
Medicaid program will significantly reduce inappropriate use of services, neither did
we find that cost-sharing created a barrier to the appropriate use of needed services.
Essentially cost-sharing is a way for the program to offset some of its costs without
undue burden on providers or beneficiaries, and in our view is certainly preferable to
reducing services or eligible beneficiaries. As a result, we have recommended that
HCFA promote the development of effective cost-sharing programs in the States.14

ENSURING     FAIR PAYMENTS        AND REDUCING         BURDENS

States must make operational changes to ensure that payments made to providers of
semice are fair and that payments are made only for services that are medically
necessary, while reducing administrative burdens and streamlining claims processing.

In the course of our extensive work on the Medicare program, we have identified
numerous instances in which the program has made excessive payments to providers.
Three basic problems cause excessive payments: inaccurate claims (caused by
imprecise coding systems, unbundling and upcoding), inappropriate payment rates, and
other insurers not paying their share. The Federal government, in administering the
Medicare programj has also faced challenges in determining whether services delivered
are medically necessary. Finally, in order to reduce its own costs as well as the costs
of providers, the Medicare program has attempted to streamline claims processing.

States administering the Medicaid program face similar problems, as discussed below.


                                           10

Inacczuate Claims: Under the Medicare program's prospective pa~ent         system,
inpatient hospital services are reimbursed a predetermined amount, depending on the
illness and its classification under a diagnosis related group (DRG). Like Medicare,
21 States use a DRG type reimbursement system for inpatient hospital costs. An OIG
computer match found that $38.5 million in improper claims for outpatient physician
services were made as a result of improper billing by hospitals.15 16 We’ve
suggested that Medicaid programs using a DRG system may also be vulnerable to such
improper claims.1’ Likewise, we have documented unbundling by physicians billing
Medicare and Medicaid,18 unbundling of laboratory tests,19 and unbundling of
surgical procedures. 20 Even when the vast majority of providers try to bill the system
accurately, imprecise coding systems--absence of a code to accurately reflect the
services being provided, overlapping codes, inadequate definitions--can prevent
providers from billing the system accurately. 212223 2A Al third party payers who
rely on providers to self-report the services they provide and pay for such services on
a per claim basis face such problems.

When overpayments are made, it is important that the program seek to recover them.
This does not always occur. We have conducted reviews of in hospitals and nursing
homes which document significant credit balances. Credit balances occur when
reimbursement for services provided to a Medicaid beneficiary exceeds the charges
billed. We estimate that nationally hospitals have received and retained $73.3 million
in credit balances~ and nursing homes have received and retained $32 million in
credit balances.~

Iizappropriate Payment Ratex Although for many types of providers, Medicaid
payments rank low in comparison to Medicare and private payers, we have
documented instances in which Medicaid payments may be too high.

For example, the Omnibus Budget Reconciliation Act (OBRA) of 1981 required State
Medicaid agencies to establish hospital payment rates that took into account hospitals
serving a disproportionate number of low-income individuals with special needs. The
law did not define the criteria to be used to identify disproportionate share hospitals
or low income individuals with special needs. Therefore, State Medicaid agencies
were allowed to develop their own criteria and methodologies for quali&ing and
reimbursing hospitals. Subsequent legislation passed in 1986, 1987, 1990, and 1991
expanded the program, established minimum criteria, and placed some limited controls
on the program. Even so, disproportionate share payments to hospitals are growing at
an substantial rate: we estimate that for 34 States, payments will increase from $763
million in FY 1990 to $5.5 billion in FY 1993. Of most concern to us, however, are
the results of our audit in South Carolina, where we found that such Medicaid
payments contributed to total hospital profitability. When considering total hospital
profits, the average South Carolina hospital receiving disproportionate share dollars
earned profits of $3.1 million. On the average, these hospitals received Medicaid
disproportionate share payments of $2.9 million. Current literature in the health care
field indicates that hospitals in other States have increased their total profitability as a
result of payments received under the disproportionate share program.27 Eliminating


                                             11

such payments in order to provide higher rates of payments to, for example,

obstetricians, might be a better use of these funds.


Payments to HMOS are another area where we have concerns based on an audit of a

major provider in Pennsylvania. Here again, we found substantial profits being

enjoyed by a HMO servicing Medicaid patients, suggesting that the Medicaid payment

rate is too generous. Rate setting for HMOS is an area we expect to focus on in the

coming year.


l%tid Parfy Liabil@: Third party liability refers to the responsibility of other parties

other than the Medicaid program or the beneficiary to pay the costs of care obtained

by the beneficiary. The Medicaid program is the payer of last resort, meaning that

any other responsible insurer must pay for services before Medicaid does. The OIG

has performed third party liability reviews in several States. One survey of six

agencies showed that five States do not have adequate systems to record and follow-up

on outstanding billings to third parties .% In another State, our survey showed that

although the State agency’s system identified liable third parties, it did not bill all third

parties.29


J&zlical Necewity: OIG audits of Medicare home oxygen therapy claims and
ambulance services found numerous instances in which claims were submitted and
paid for services that were not medically necessary. 3031 We’ve suggested that State
Medicaid programs, which also reimburse providers for oxygen and ambulance
services, may also be vulnerable to such claims and have suggested joint audits with
State agencies to examine the question.32

Electronic Clizirn+,RevI”ewand Payment: The increased use of electronic claims, point
of service or point of sale technology, and electronic funds transfer holds promise for
reducing administrative costs while at the same time improving relations with program
providers.

Physicians contend that the “hassle factor”-- administrative red tape associated with
participating in Medicaid--discourages many doctors from treating patients who are
covered by Medicaid. When providers refer to the administrative burden, they
generally are referring to such problems as slow payments; rejection of claims because
the billing form was completed incorrectly; difficulties in correcting claims that contain
errors; inability to verify recipients’ Medicaid eligibility, leading to claim denials;
frequent changes in policies, covered procedures, and required documentation; and
confusing provider manuals. Physicians often cite administrative burdens as one
reason, in addition to low payment rates, that they don’t participate in Medicaid.

In 1992, the OIG conducted a study to examine promising approaches being used by
State Medicaid programs to be responsive to physician complaints about Medicaid’s
administrative burden. Particular complaints about claims processing center around
frustration with the process of submitting and getting claims paid. For example, one
physician told us, “Even the most intelligent neurosurgeon gets hung up on what needs


                                             12
to be done.” Another, expressing a common complaint, said, “Physicians aren’t given
an explanation for rejected claims. It is the doctor’s responsibility to track the claim
and find out why it was denied, which takes extra staff time and financial resources.”

In an attempt to address these types of complaints, at least 28 States have instituted
electronic claims systems for physician services. The proportion of claims in each of
these states that are submitted electronically ranges from 3 percent in North Dakota
to 66 percent in Georgia.

Staff at several state Medicaid agencies we spoke with stressed their commitment to
electronic claims submission. Advantages of using electronic claims submission include
faster payment compared to submission of paper claims and reduced cost to the
provider for clerical services, since paperwork is decreased and the physician’s
signature is not required on each claim. Despite the advantages of electronic claims
processing, most physician claims are still submitted on paper. One reason is that
many physician offices do not have available the computer hardware necessary for
electronic submission of claims.

In Florida, the Medicaid agency had developed software that enables any provider to
submit claims electronically. (The software, as well as claims submission, is free of
charge to the provider.) Using the system, physicians can tailor the software to meet
their particular needs when it is installed. For example, some information, such as the
physician’s name and address and the date of the claim, may be automatically inserted
each time a claim is prepared, and diagnostic, procedure, or billing codes (for common
illnesses that physicians may treat) can be inserted with a single keystroke.

Several states have also developed automated telephone inquiry systems to answer
physician inquiries. These systems can be accessed with a touch-tone phone, Since
most calls to Medicaid concern eligibility or claims status, these can be handled quickly
and systematically, freeing staff to deal with the more difficult situations and questions.
For example, Maryland’s automated voice response system operates continuously, and
permits providers to verify dates of program eligibility for services rendered up to one
year previously.33

Point of service systems have great potential for improving the administration of
Medicaid programs across the country. They can perform eligibility verification, claims
submission, claims. adjudication, and utilization review on a real-time basis. New
York’s point of service system is savings millions a year by performing eligibility
verification and utilization review. Massachusetts uses its point of service system for
eligibility verification only. It is also saving millions of dollars annually. Even so, few
States have developed or plan to develop point of service systems.34

Likewise, our inspection on electronic funds transfer found that only eight States are
using this electronic method to reimburse Medicaid providers. A number of factors
are preventing additional States from using electronic funds transfer: concerns
regarding loss of cash flow, potential fraud, and initial cost. We consider these


                                            13
problems to be easily surmountable, although others (provider populations that change
banks frequently, inadequate capabilities of local banks) may be more difficult to
overcome. It is also true that electronic funds transfer will only save money if
remittance advisories, the notifications sent to physicians regarding their payments, are
also sent electronically. If remittance advisories are sent by paper, program
administrators might as well include the check in the same envelope and forgo
electronic funds transfer.35

MANAGING LONG TERM CARE

The Medicaid program must ensure that long term care expenditures, which account
for a large proportion of Medicaid outlays and are growing precipitously, are managed
wisely.

As discussed earlier, the funds paid out for long term care under Medicaid represent a
substantial portion of the program’s total dollars. Yet, in many respects, here the
Medicaid program acts more as an open checkbook than a payor of last resort for the
needy.

In 1989, the OIG completed work on a case study of transfer of assets in the
Washington State Medicaid program. We found that 58 percent of the elderly
applying for assistance who were denied because they exceeded the resource eligibility
threshold became eligible in a few months by transferring or sheltering their assets. In
order to qualify for Medicaid, beneficiaries used various--and completely legal--means
to appear as though they had access to no resources. For example:

�	     One beneficiary transferred   $153,500 to adult children using an irrevocable
       trust.

�	     One beneficiary used $50,000 to pay off a note on the family home, which is
       exempt under Medicaid rules from asset tests.

�	     One beneficiary removed his name from bank accounts and certificates of
       deposits (totaling $206,363) and from the family residence ($40,000).

�	    One beneficiary transferred property with an assessed value of $433,000 to the
      well spouse “to qualify the incompetent for medical assistance benefits,”
      according to the court order.3G

Much of what we found in 1989 still holds true today. Elder law attorneys advising
clients on how to hide their affluence by buying exempt assets, transferring money or
assets to others, purchasing trusts and other means, appear to be a growing legal
specialty. Although no one knows the extent of transfers of assets (both legal and
illegal) to qualify for Medicaid, we found over $4 million in assets of only 114
originally denied, but subsequently approved, Medicaid nursing home cases. Currently,



                                            14

HCFA, the U.S. General Accounting Office, andthe        OIGaredeveloping      study plans
in this area.

ENSURING      QUALITY     OF CARE

The Medicaid program must ensure quality of care of services that are delivered.

For the sake of the program’s financial integrity and beneficiaries’ protection, the
Medicaid program had a responsibility to ensure that the care it pays for it necessary
and appropriate. Inthisregard,   three newinitiatives are critical: successful
implementation of new nursing home quality standards; development of a workable
system to ensure quality in managed care settings; and implementation of drug use
review.

Ntig     Home QuaZ@: The Omnibus Reconciliation Act of 1987 chartered a new
direction in survey and certification of nursing homes. Rather than focus on process,
the new surveys would focus on resident quality of life and outcomes. We are
currently completing a study to assess how States are implementing the new survey
and certification process.

One of the most significant requirements of OBRA 1987 was a new rule regarding the
use of chemical and physical restraints.    The OBRA 1987 established that nursing
home residents have the right to be free from physical and chemical restraints not
required to treat their medical symptoms.      In 1992, we conducted a study to assess
how average nursing homes were implementing         this important provision.   Our report
described the lessons learned by nursing homes engaged in reducing the use of
physical and chemical restraints.   It presented the lessons in three areas that reflect
the operational stages of restraint reduction:    1) establishing a commitment to restraint
reduction; 2) reducing restraints; and 3) maintaining a restraint-free    home.

Quality Assurance in Medicaid HMOS: As discussed above, States have turned to
managed care as their best alternative to ensure access and continuity of care. It is
especially important to have quality assurance (QA) systems in place because the
capitated payment in managed care systems may create a financial incentive to
undertreat, and because Medicaid beneficiaries may have difficulty negotiating a new
and different system.

In 1992 we reported on HMO quality assurance standards required by Medicaid
agencies. We found that all Medicaid agencies contacted the study use structural
standards, such as ,requiring HMOS to have a written quality assurance plan. Most
have carried over fee-for-service process standards to their HMO program, i.e.,
conducting episodic medical record reviews and requiring HMOS to verify provider
credentials. Most rely on complaint standards more than patient satisfaction surveys
and health outcome reviews to ensure quality.




                                            15

Ensuring compliance with required standards varies significantly among Medicaid
agencies. Compliance with some required standards is never verified by some, others
rely heavily on HMO self-assessments of compliance. When Medicaid agencies do
their own compliance audits they focus on HMO compliance with structural and
process standards.37

Drug Use Revz”ew: OBRA 1990 required States, by January 1, 1993, to develop a drug
use review program consisting of prospective and retrospective review to assure that
prescriptions are appropriate, medically necessary, and not likely to result in adverse
effects.

Prospective drug review must provide for drug review before the prescription is filled,
typically at the point of sale. Retrospective review must be performed through the
mechanized drug claims system to identify fraud, abuse, or inappropriate care. The
States must also establish a Drug Use Review Board. Each Board must report to the
Secretary annually and the Secretary must use the reports to evaluate the effectiveness
of the States’ programs. The OIG plans a study to assess State implementation of
drug use review programs in 1993.

Our report on ulcer treatment drugs demonstrates the program savings and quality of
care issues that arise when reviewing prescription drug use. In a review of 1,600
Medicaid beneficiaries, we found that 38 percent of the recipients received dosages of
ulcer treatment products that were in excess of manufacturers’ recommendations.
Limiting payment for the six ulcer treatment drugs under study to the dosages
recommended by manufacturers would save the Medicaid program $112 million
annually as well as help prevent inappropriate prescription drug use.38

GUARDING      AGAINST FRAUD         AND ABUSE

The Medicaid program must effectively protect itself from fkaud and abuse.

�	     Medicaid Fraud Control Units stand as an essential force in the jiont lines
       combatting fi-aud and abuse in Medicaid.

The Medicaid program must ensure that its system can identify and refer cases of
fraud to appropriate authorities. In order to increase the quantity and quality of fraud
referrals, the HCFA is encouraging close working relationships between Medicaid
agency staff who review the use of services by beneficiaries and Medicaid Fraud
Control Units (MFCU) staff, who investigate allegations of fraud in most States. We
previously reported our concerns about the level of referrals from Medicaid agencies
to the MFCUS and continue to support additional HCFA leadership in this area.




                                            16

�	     Identification of questionable patterns of care can provide important information
       in identijjing possible jiaud

Several years ago, in response to concerns about the diversion and improper use of
prescription drugs in Medicaid, the OIG developed software for use by Medicaid
officials in identi&ing odd or unexpected patterns in the use, dispensing, or prescribing
of prescription drugs. This program, called the Medicaid Abusable Drug Analysis
System (MADAS), analyzes scripts for all drugs on Schedules 2 through 5 and targets
potential diversion activity by Medicaid recipients and providers. It can be targeted to
specific geographical areas, specific drugs, or an array of abusable drugs. Currently,
17 State Medicaid agencies or Medicaid Fraud Control Units are utilizating MADAS
data to track prescriptions for controlled substances.

States utilizing MADAS have three basic objectives. They are (1) to restrict
availability of prescription drugs to abusers through the use of lock-in programs, (2)
the removal of physicians and pharmacies abusing the program and (3) the referral of
physicians and pharmacies to law enforcement agencies for criminal prosecution.

While some States did not maintain detailed statistics on the results achieved using
MADAS, we do know that MADAS has been directly responsible for three successful
prosecutions in New Mexico and there are currently 20 ongoing investigations in
Pennsylvania. We are also aware of numerous referrals to the State Bureau of
Narcotics and the State Police in Minnesota, Missouri and Oklahoma.

E      Strategies to prevent fraud on the jiont end are essential


While identification of providers and beneficiaries defrauding the system is crucial, it is

also important to reduce opportunities for fraud. We recently completed a study in

which we assessed the potential of Multiple Copy Prescription Programs (MCPPS) for

the prevention of fraud and abuse of prescription drugs. We found that MCPPS

reduce vulnerability to theft and forgery. While their effect on overall prescribing of

scheduled drugs is difficult to assess from existing studies, MCPPS appear to have

shown some effect on abuse of scheduled drugs and program officials associate

MCPPS with better targeting of investigator resources and more successful

prosecutions of offenders involved in drug diversion.39


Legal prohibitions on behavior or activities which can lend themselves to fraudulent

acts are also essential. For example, under the Medicare and Medicaid anti-kickback

statute, section 1128(B)(b) of the Social Security Act, it is illegal to offer or pay a

profit distribution to physicians to deliberately induce them to refer business payable

under Medicare or any State health care program. Since 1987, we have received more

than 1,300 allegations of violations of the anti-kickback statute and have opened over

850 cases.





                                             17

IMPROVING FEDERAL-STATE            RELATIONS

Federal and State relationships must be improved.

The Medicaid program is supported dually by the Federal and State governments.
Rather than representing the best of both levels of governments, too frequently the
interests of the State and Federal governments have been seen as opposing, rather
than reinforcing, each other. The best, and most recent, example is the dispute over
provider taxes and donations.

Prior to 1985, States were not permitted to use donated funds except for training State
personnel to administer Medicaid. In 1985, a new regulation permitted States to use
public and private donations for the State FFP with limitations (if the funds were
transferred to the Medicaid agency and were under its administrative control and if
the funds do not revert to the donor (unless donor was a nonprofit organization and
the Medicaid agency decided independently to use the donor’s facility)).

Following issuance of this rule, some States under fiscal stress began to use the
provision to maximize funds from the Federal government. Contributions to States
from Medicaid providers (mostly hospitals and nursing homes) were used as part of
the State’s share of spending for covered services and matched with Federal funds.
Around the same time, some States imposed provider-specific taxes on health care
providers.

These revenue sources quickly became controversial. From the Federal perspective,
the Federal government should not reimburse States for the amounts collected from
Medicaid-only providers. They contend that these are not costs incurred by the State,
and therefore are not eligible for the Federal match. Reports by the OIG
recommended that HCFA take action to control thse provider tax and donation
programs.40 From the States’ point of view, the Federal government should not care
what sources of revenue the State uses to pay for its Medicaid program.

From 1988 to 1990, Congress enacted measures prohibiting HCFA from implementing
regulations banning the use of funds from taxes and donations except in certain cases.
Then in November 1991, Congress passed the Medicaid Voluntary Contribution and
Provider-Specific Tax Amendments of 1991. Effective January 1, 1992, States are
prohibited from using most voluntary contributions to claim FFP. The law prohibits
use of Federal funds to match revenues derived from provider-specific taxes unless
these taxes are broad-based and apply uniformly to all providers of a given type and
all business of the providers within a class of services. These broad-based, uniform
taxes are considered acceptable since they are not unlike imposing a new property tax
to raise State revenues.

States budgets have also been strained by the introduction of unfunded Federal
mandates, such as those introducing new requirements for setices that must be
provided to pregnant women and children. Administrative rules and requirements


                                          18
placed on States (such as those requiring that States apply for waivers from Federal
rules to implement a new program which has previously been approved for another
State) have also caused unnecessary and unproductive tension between the States and
Federal government. The poor Federal-State relationship has led to what some have
termed “irresponsibility at all levels” and led to calls for repeal of the Medicaid
program and its current Federal-State structure.




                                         19

                   RECOMMENDATIONS

As discussed in this report, the problems and challenges facing the Medicaid program
are substantial, We are aware, of course, that many policymakers are arguing for a
fundamental restructuring or elimination of the Medicaid program. During the course
of our audits, inspections, and investigations in the Medicaid program, we have made
numerous specific recommendations for change. Many of these recommendations
have been accepted by the Health Care Financing Administration and some have not.
Some require legislative changes; others require action by the States.

All significant unimplemented OIG recommendations are included in one of two
documents. The Office of Inspector General Cost-Saver Handbook (the Red Book) is
a compendium of recent OIG recommendations to reduce unnecessary spending by
the Department through administrative or regulatory change, or by the Congress and
Administration through legislative change. The Office of Inspector General Program
and Management Improvement Handbook (Orange Book) contains recent
recommendations for strengthening program and management efficiency and
effectiveness. For our readers’ convenience, we have reproduced our listing of
recommendations to improve the Medicaid program in the appendices to this report.

We are pleased to see that the Administration supports OIG recommendations made
in various forums for extending the ban on self-referral, for lifting the ban on drug
formularies, and for tightening loopholes on transfers of assets and strengthening asset
recovery laws.




                                           20

                           APPENDIX             A

       UNIMPLEMENTED         OIG RECOMMENDATIONS:       COST SAVERS

                                                ANNUAL SAVINGS

Establish Mandatory Prepayment Edit Screens     $12 million

Control Medicaid Payments to Institutions for
Mentally Retarded People                        $683 million

Reduce Non-urgent Use of Emergency Rooms        $39.5 million

Recover or Adjust Medicaid Credit Balances
in Nursing Facility Accounts                    $32 million

Recover or Adjust Medicaid Credit Balances

in Hospitals                                    $73.3 million





                                        A -1

                           APPENDIX                  B

                UNIMPLEMENTED OIG RECOMMENDATIONS:
                       PROGRAM IMPROVEMENTS

Medicaid and Homeless Ilzdividud

E	    The HCFA should work with SSA to develop a joint strategy to increase access
      to Medicaid for eligible homeless individuals.

�	    The HCFA should consult with PHS and SSA to develop models to help
      homeless individuals apply for Medicaid.

F	    The HCFA should provide technical assistance to States to promote the
      development of State strategies and linkages designed to use Medicaid more
      effectively to serve this population.

F	    The HCFA should use the Interagency Council on the Homeless to provide
      technical assistance to other Federal agencies and McKinney providers to make
      Medicaid more accessible to homeless individuals.

Medicaid Expansions for I?enatal Care--State and Local Implementation

�     The HCFA should develop a comprehensive      outreach strategy.

b     The HCFA should simplify and streamline the application process.

F     The HCFA should develop incentives to increase provider participation.

�	    The HCFA should clarify policy and monitor implementation     of Medicaid
      expansions for prenatal care.

F	    The HCFA should develop data collection systems and evaluation processes to
      measure progress of the eligibility expansions and future program effects.

PoiM of Service Cikiins Management Systems for Medicaid

�	    The HCFA should collect information on point-of-semice technology and
      regulatory distribute it to the States.

Ekctronic Funds l’)ansfer for Medicaid l+owikm

�	    The HCFA’ should work with State Medicaid agencies to identify problems with
      electronic funds transfer (EFT) and share other States’ solutions to these
      problems.



                                        B-1

F	    The HCFA should assist States in developing billing agreements for providers
      who use electronic claims, remittance advisories, and fund transfers.

�     The HCFA should develop guidelines for provider participation    in EFT.

Early and PeriOdic Screening Diagnosk and lleatment (EPSDT)--Peflomumce
Measurement

�	    The HCFA should modify the methods by which it measures rates to correctly
      reflect States’ progress in meeting goals.

Controh over lkwnphon   DIugs

�	    The HCFA should direct its oversight reviews to States that do not participate
      with the OIG in implementing its program to identify prescription drug abuse
      and diversion.

�	    The HCFA should incorporate into its review the OIG program to evaluate the
      effectiveness of the States’ internal controls over prescription drug abuse and
      diversion.

Medicaid Dkpropmiionate Share

�	    The HCFA should encourage South Carolina to explore alternative payment
      methodologies.

�	    The HCFA should gather more detailed data on disproportionate share
      payments that could be used to performed a nationwide review of the program.

Medicaid Dmg Rebate fiogram

>	    The HCFA should require States to develop procedures to monitor the
      accuracy of reporting by pharmacists.

F	    The HCFA should require States to perform tests of the dosage units reports
      and establish computer edits to detect and correct obvious errors.

>	    The HCFA should contact the various national pharmacy associations and
      request their participation in alerting pharmacists to the program and its needs.

�	    The HCFA should alert Congress of the impact of eliminating the best price
      from the existing rebate formula.

F	    The HCFA should make a legislative proposal to redefine best prices based
      upon prices as they existed in October 1990 and adjust for increases in the
      Consmer Price Index.


                                         B-2

                              APPENDIX                   C

                                       ENDNOTES


1. Office of Inspector General, Office of Evaluation and Inspections, “Medicaid
Expansions for Prenatal Care: State and Local Implementation,” 0EI-06-90-O0160.

2. Office of Inspector General, Office of Evaluation and Inspections, “Early and
Periodic Screening, Diagnosis, and Treatment      (EPSDT)--Performance    Measurement,”
OEI-07-90-00130.

3. Office of Inspector   General, Office of Audit Services, “Impact of the Omnibus
Budget Reconciliation    Act of 1990 on Drug Expenditures    Including Best Price,” A-14-
91-02057.

4. Office of Inspector General, Office of Audit Services, “Inaccurate Reporting of
Medicaid Drug Data by Pharmacists,” A-06-91-00056.

5. Office of Inspector General, Office of Audit Services, “The Health Care Financing
Administration Needs to Provide Additional Guidance to Drug Manufacturers to
Better Implement the Program,” A-06-91-00092.

6.	 Office of Inspector General, Office of Audit Services, “Unit Rebate Amounts
Inappropriately Calculate to Include an Additional Rebate for Newly Marketed Drugs
in the First Quarter 1991,” A-O6-91-OO1OO.

7. Office of Inspector General, Office of Audit Services, “Improvements Needed in
the Health Care Financing Administration’s Procedures to Implement the Medicaid
Drug Rebate Program,” A-O6-91-OO1O2.

8. Office of Inspector General, Office of Audit Services, “Review of Management
Controls Established Over the Medicaid Prescription Drug Rebate Program,” A-06-92-
00029.

9. Office of Inspector General, Office of Evaluation and Inspections, “Strategies to
Reduce Medicaid Drug Expenditures,” 0EI-12-90-O0800.

10. Office of Inspector General, Office of Audit Services, “Escalating Outpatient
Prescription Drug Costs are Severely Impacting Federal and State Budgets,” A-06-92-
00046.

11. Office of Inspector General, Office of Evaluation and Inspections, “Medicaid
Payments to Institutions for Mentally Retarded People,” OEI-O4-91-O1O1O.




                                           B-1

12. Office of Inspector General, Office of Audit Services, “Elimination of Enhanced
Federal Financial Participation Rate for Family Planning Services under Medicaid,” A-
01052, December 1992.

13. Office of Inspector General, Office of Evaluation and Inspections, “Use of
Emergency Rooms by Medicaid Recipients,” OEI-06-90-00180.

14. office of Inspector General, Office of Evaluation and Inspections, “Medicaid Cost
Sharing,” OEI-03-91-01800.

15. Office of Inspector General, Office of Audit Services, “Millions in Improper
Payments to Hospitals for Nonphysician Services under The Prospective Payment
System (PPS)--October 1983 Through January 1986,” A-01-86-62024, July 1988.

16. Office of Inspector General, Office of Audit Services, “Improper Medicare
Payments for Nonphysician Outpatient Services under the Prospective Payment
System--February 1986 through November 1987,” A-01-90-00516, August 1990.

17. Office of Inspector General, Office of Audit Services, “Audits of Health Care
Expenditures and Related Issues: Potential for Joint Federal/State Reviews,” February
1993.

18. Office of Inspector General, Office of Audit Services, “Management Advisory
Report: Manipulation of Procedure Codes by Physicians to Maximize Medicare and
Medicaid Reimbursements,” A-03-91-00019, September 1991.

19. Office of Inspector General, Office of Audit Services, “Changes are Needed in the
Way Medicare Pays for Clinical Laboratory Tests,” A-09-89-00031.

20. Office of Inspector General, Office of Evaluation and Inspections, “Fragmented
Physician Claims,” 0EI-12-88-O0901, September 1992.

21. Office of Inspector General, Office of Evaluation and Inspections, “Pocket
Dopplers: Management Advisory Report,” OEI-03-91-00461, May 1991.

22. Office of Inspector General, Office of Evaluation and Inspections, “Low Cost
Ultrasound,” OEI-O3-88-O141O, August 1991.

23. Office of Inspector General, Office of Evaluation and Inspections, “Zero
Crossers,” 0EI-903-91-O0460, August 1991.

24. Office of Inspector General, Office of Evaluation and Inspections, “OEI-12-88-
00900, September 1992.

25. Office of Inspector General, Office of Audit Services, “Nationwide Audit of
Medicaid Credit Balances,” A-O4-92-O1O23.




                                        c-2
26. Office of Inspector   General,   Office of Evaluation              “Medicaid
                                                            and Inspections,
Credit Balances in Nursing Facility Patient Accounts,” OEI-07-90-00911, JUIY1992.

27. Office of Inspector General, Office of Audit Services, “Growth of Medicaid
Disproportionate Share Payments and Effect on Hospital Profitability,” A-O4-92-O1O25.

28. Office of Inspector General, Office of Audit Services, “Early Alert on Medicaid
Third Party Liability Issues,” A-01-91-00005, January 1992.

29. Office of Inspector General, Office of Audit Services, “Early Alert on Third party
Liability Identification and Collection--Florida Department of Health and
Rehabilitative Services,” A-O4-92-O1O2O,July 1992.

30. Office of Inspector General, Office of Audit Services, “Results of National Review
of the Medical Necessity for Oxygen Concentrators--September    1, 1987 Through
August 31, 1988,” A-04-88-02058, March 1990.

31. Office of Inspector General, Office of Audit Services, “Review of Medical
Necessity for Ambulance Services,” A-01-91-00513, October 1992.

32. Office of Inspector General, Office of Audit Services, “Audits of Health Care
Expenditures and Related Issues: Potential for Joint Federal/State Reviews,” February
1993.

33. Office of Inspector General, Office of Evaluation and Inspections, “Medicaid
Hassle: State Responses to Physician Complaints,” OEI-O1-92-OO1OO.

34. Office of Inspector General, Office of Evaluation and Inspections, “Point-of-
Service Claims Management Systems for Medicaid,” OEI-01-91-00820.

35. Office of Inspector General, Office of Evaluation and Inspections, “Electronic
Funds Transfer for Medicaid Providers,” OEI-01-91-00821.

36. Office of Inspector General, Office of Evaluation and Inspections, “Transfer of
Assets in the Medicaid Program: A Case Study in Washington State,” 0EI-09-88-
01340.

37. Office of Inspector General, Office of Evaluation and Inspections, “A Review of
HMO Quality Assurance Standards Required by Medicaid Agencies,” 0EI-05-92-
00110.

38. Office of Inspector General, Office of Audit Services, “Nationwide Audit of Six
Ulcer Treatment Drugs Reimbursed under the Medicaid Prescription Drug Program,”
A-06-92-00003, November 1992.

39. Office of Inspecto] General, Office of Evaluation and Inspections, “Multiple Copy
Prescription Programs:    State Experiences,” 0EI-12-91-O0490.



                                             c-3
40. Office of Inspector General, Office of Audit Services, “MedicaidStateT axand
Donation Programs,” A-14-91 -O1O1O;A-03-91-00203.




                                        c-4
Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




 SUMMARY OF OIG ACTIVITIES ON
         MEDICARE




                                          I




                 JUNE 1993
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statuto~ mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program, and management problems, and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing sexvices for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                         OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.
